                                                                                               Office a/Inspector General

                                                                                               U.S. Depai-iment of   Homeland Secui-ty
                                                                                               Eastern Region
                                                                                               Office of Emergency Management Oversight
                                                                                               io Tenth Street Suite 750
                                                                                               Atlanta, GA 30309



                                                                                               Homeland
                                                                                               Security
                                             September 18, 2008


MEMORANDUM FOR:	                             Alec Watson, Acting Director
                                             FEMA Mississippi Transit~l !rcove:y 0rrj _


FROM:	                                       C. David Kimble, Directoil~J¿o.i cf~
                                             Eastern Regional Office

SUBJECT:                                     Hurricane Katrina Activities for Singing River Electric
                                              Power Association
                                             Public Assistance Identification No. 000-U7MW7-00
                                             FEMA Disaster            No. 1604-DR-MS
                                             Report Number DA-08-l1

We performed a review of disaster costs associated with Hurricane Katrina activities for the Singing
River Electric Power Association located in Lucedale, Mississippi. The objectives of 	the review
were to determine whether the Association was properly accounting for disaster-related costs and
whether such costs were eligible for funding under the Federal Emergency Management Agency's
(fEMA) disaster assistance programs.

As of 
  November 29,2006, the Association had received an award of$2J.5 million fìom the
Mississippi Emergency Management Agency (MEMA), a FEMA grantee, for debris removal,
emergency protective measures, and repairs of  buildings, equipment, and utilities damaged during
the disaster. The award provided J 00% FEMA funding for 19 large! projects and 8 small projects.

We limited our review to costs totaling $J 7.8 million under the 19 large projects, consisting of $4.0
million for debris removal, $ J 2.0 milion for emergency protective measures, and $1.8 million for
utilities repair activities (see Exhibit). The review covered the period August 15, 2005, to November
29, 2006.

We performed this review under the authority of 
                         the Inspector General Act of i 978, as amended, and
according to Quality Standards/or Inspections issued by the President's Council on Integrity and
Effciency. Vv'¡: revieyved the Association's method of disaster grant accounting and contracting
policies and procedures. We also sclectedjudgmental samples of 
    project expenditures; interviewed
Association, MEJ'vlA and rEM 
                 A personnel: and pertòrmed other procedures considered necessary
under the circumstances.



i Federal regulations in effect at the iime of Hurricane Katrina set the large project threshold at $55,500.
                                                        RESUL TS OF REVIEW


The Association did not comply with federal procurement regulations when contracting for $7.9
milion in emergency work for debris removal and electrical power restoration. In addition, the
Association's claim included $223,454 of 
 ineligible regular-time labor costs.

A. Contracting Procedures. Federal procurement regulations (44 CFR 13.36) allow a grant recipient
   to use time-and-material contracts only after a determination has been made that no other form of
   contracting is suitable and with a ceiling price that the contractor exceeds at its own risk. Federal
   regulations place restrictions on this method of procurement because it does not provide an
   incentive for contractors to control costs. In addition, federal procurement regulations require a
   cost or price analysis, as applicable, for every procurement action, including contract
   modifications.

     The Association awarded eight non-competitive, time-and-material contracts for emergency
     debris removal and restoration of its electrical distribution system. The contractors billed the
     Association $7.9 million for work performed during the period August 29,2005, to September
     15, 2005. The contracts, however, were awarded without a price analysis to deteimine the
     reasonableness ofthe contractors' proposed rates and without ceiling prices. In addition, one of
     the contracts for debris removal did not contain any proposed labor rates prior to starting work.
     As a result, FEMA has no assurance that the $7.9 million of costs claimed for work performed
     under the time-and-material contracts are reasonable.

     Association officials said that they considered Hurricane Katrina's destruction to be an exigent
     event and that they followed the same contracting procedures used under previous disasters.
     While we agree that exigent circumstances existed to warrant emergency contracting procedures,
     federal regulations require a cost/price analysis to be perfomied in connection with every
     procurement action to determine the reasonableness of 
  the proposed contract costs, and that cost
     ceilings be established for time-and-material contracts.

B. Regular-time Labor Costs. The Association's claim included $223,454 of 
        ineligible regular-time
     salaries and associated fringe benefits of permanently employed personnel engaged in
     emergency work. According to federal regulations (44 CFR 206.228(a)(4)), the regular and
     straight time salaries and benefits of a sub 
 grantee 's permanently employed personnel are not
     eligible in calculating the eosts of emergency work. The projects and related costs are shown in
     the table below.

                                           Project              Amount             Amount
                                           Number               Awarded           Questioned
                                               123               $   245,784         $   3,224
                                               125                 6,283,093            99,704
                                               126                 3,236,176            90,952
                                               128                 1,840,571            26.424
                                               129                   484,482             2.956
                                               130                   100,828               J94
                                            Totals               $12,190,934         $ 223,454



                                                                              2
     Association officials said that the costs should be allowed because a FEMA contractor told them
     the costs were eligible for FEMA funding. However, federal regulations do not allow FEMA
     reimbursement for regular-time salaries and benefits of a subgrantee's permanently employed
     personnel engaged in emergency work. Therefore, we question the $223,454.


                                                    RECOMMENDA TIONS

We recommend that the Acting Director of the Mississippi Transitional Recovery Office, in
coordination with MEMA:

     Recommendation #1. Perfomi a validation of 
    the $7.9 million in costs claimed under the time­
     and-material contracts, and disallow any costs determined to be umeasonable.

     Recommendation #2. Disallow the $223,454 of questioned costs.

     Recommendation #3. Instruct the Association to comply with federal regulations and FEMA
     guidelines when awarding contracts under the FEMA award.


                                 MANAGEMENT DISCUSSION AND FOLLOW-UP

We discussed the results of our review with Association, FEMA, and MEMA officials on March 8,
2007. Association officials disagreed with our findings. Their comments are included in the body of
the repOli.



Please advise me by November 16,2008 of 
   the actions taken to implement the recommendations
contained in this report. Should you have any questions concerning this report, please call me at
(404) 832-6702 or Felipe Pubillones at (404) 832-6705. Key contributors to this assignment were
relipe Pubillones, Ronald Cummings, and Larry Arnold.




                                                           3
                                                                   Exhibit

               Singing River Electric Power Association

                   FEMA Disaster No. 1604-DR-MS

        Schedule of Amount Awarded, Reviewed, and Questioned



    Project
    Amount              Amount
        Amount
    Number
     Awarded            Reviewed
      Questioned
      21
        $    121,381     $    152,963
      $         0
      23
              540,562         669,735                 0
      24
              567,358         697,928                 0
      26
            3,384,463      2,452,555                 0
      28
               77,426          13,130                0
      123
             245,784         362,970            3,224
      125
           6,283,093       5,553,862           99,704
      126
           3,236,176      2,773,800            90,952
      128
           1,840,571      2,653,200            26,424
      129
             484,481        605,011             2,956
      130
             100,828        120,990              194
     7317
             186,677                0                0
     7863               64,489                0                0
     7149              709,115        363,261                  0
     7156              137,698         53,220                  0
     7190            2,256,975        936,858                  0
     7379              935,238        364,725                  0
     7383              214,782                0                0
i    7461              8 i ,319          34,708                0
I
¡
     Total      $21,468,416       $17,808,916        $223,454




                                     4
